INDEX TO APPENDIX
Judgment, and Transcript of Judgment of the
Minnesota Court of Appeals . . . . . . . . . . . . . . . . . A-1
Order of the Minnesota Supreme Court, Denying
Review of Court of Appeals’ Decision . . . . . . . . . . A-3
Decision and Opinion of the Minnesota Court of
Appeals . . . . . . . . . . . . . . . . . . . . .. . . . . . . . . . . . . . A-4
Findings and Order of the District Court . . . . . . A-17

A-i

STATE OF MINNESOTA COURT OF APPEALS
JUDGMENT
Appellate Court #A18-1185
Trial Court # 55-CV-17-6987
Emily Peterson, petitioner,
Respondent,
vs.
Scott Howard Meyer,
Appellant.
Pursuant to a decision of the Minnesota Court
of Appeals duly made and entered, it is determined
and adjudged that the decision of the Olmsted County
District Court herein appealed from be and the same
hereby is affirmed and judgment is entered
accordingly.
Dated and signed: August 14, 2019
FOR THE COURT
Attest: s/
AnnMarie S. O'Neill
Clerk of the Appellate Courts
By: s/
Assistant Clerk

A-1

STATE OF MINNESOTA COURT OF APPEALS
TRANSCRIPT OF JUDGMENT
I, AnnMarie S. O'Neill, Clerk of the Appellate
Courts, do hereby certify that the foregoing is a full and
true copy of the Entry of Judgment in the cause therein
entitled, as appears from the original record in my
office; that I have carefully compared the within copy
with said original and that the same is a correct
transcript therefrom.
Witness my signature at the Minnesota
Judicial Center,
In the City of St. Paul August 14, 2019
Dated
Attest: s/
AnnMarie S. O'Neill
Clerk of the Appellate Courts
By: s/
Assistant Clerk

A-2

STATE OF MINNESOTA
IN SUPREME COURT
A18-1185
Emily Peterson,
Respondent,
vs.
Scott Howard Meyer,
Petitioner.

ORDER
Based upon all the files, records, and
proceedings herein,
IT IS HEREBY ORDERED that the petition
of Scott Howard Meyer for further review be, and
the same is, denied.
Dated: August 6, 2019

BY THE COURT:

s/
Lorie S. Gildea
Chief Justice

A-3

This opinion will be unpublished and may not be cited
except as provided by Minn. Stat. § 480A.08, subd. 3
(2018).
STATE OF MINNESOTA
IN COURT OF APPEALS
A18-1185
Emily Peterson, petitioner,
Respondent,
vs.
Scott Howard Meyer,
Appellant.
Filed May 20, 2019 Affirmed
Stauber, Judge*
Olmsted County District Court
File No. 55-CV-17-6987
James A. McGeeney, Doda & McGeeney, P.A.,
Rochester, Minnesota (for respondent)
Zorislav R. Leyderman, The Law Office of Zorislav R.
Leyderman, Minneapolis, Minnesota (for appellant)
Considered and decided by Rodenberg,
Presiding Judge; Cleary, Chief Judge; and Stauber,
Judge.
*Retired judge of the Minnesota Court of Appeals, serving by
appointment pursuant to Minn. Const. art. VI, § 10.

A-4

UNPUBLISHED OPINION
STAUBER, Judge
Appellant disputes that messages he sent to
respondent constitute repeated incidents of
harassment necessary to support the district court’s
issuance of a harassment restraining order under
Minnesota Statutes section 609.748, subdivision
5(b)(3) (2018). Appellant also argues that the
harassment restraining order is vague and
overbroad. We affirm.
FACTS
Appellant Scott Howard Meyer and respondent
Emily Peterson, who were never married, share a son
who was born approximately nine years prior to the
harassment restraining order (HRO) hearing. Since
the birth of their son, Meyer and Peterson have been
engaged in a “significantly contentious” battle over
their son. Eventually, the parties resorted to
communicating
with
one
another
through
OurFamilyWizard (OFW), a messaging application
which offers web based and mobile phone based
solutions for divorced or separated parents to
communicate.
On October 4 and October 5, 2017, Meyer and
Peterson exchanged electronic correspondence via
OFW. The following messages were exchanged
between the parties on October 4, 2017:
SM (9:43 p.m.): If you don’t plan on
showing up Friday in court, please let me
know so that you don’t ruin Colin’s
weekend in Duluth for no reason. He was

A-5

very much looking forward to going up
there tonight.
EP (10:09 p.m.): Don’t turn this on me,
this is all you and your obnoxious court
filings.
SM (10:11 p.m.): This is and always has
been all you with your kidnapping of
Colin,
your
constant
lies
and
manipulative
actions,
and
your
vindictive and immature behavior. Right
from the start.
EP (10:12 p.m.): Nine years Scott! Please
find something else in life to enjoy.
SM (10:25 p.m.): No kidding Emily. Get
a life and leave me and Colin alone
during my parenting time.
Give me a passport and there’d be
no reason to go to court Friday.
But I guarantee you, Martie,1 I
will never forgive or forget or let go of
what you did by stealing Colin from me
and his siblings then continually
interfering with our relationship with
him. 9 years is just the beginning. I’ve
only just begun with you.
SM (10:28 p.m.): And the constant lies.
Lie after lie after lie. I have it all laid out
1

Martie is Meyer’s ex-wife.

A-6

perfectly. And when Colin is older, I’ll
show him everything in addition to the
public display of all your behavior. You
know I’m not all talk Emily. I will follow
through. You have only seen the tip of
the iceberg from me in your life.
EP (10:29 p.m.): Please don’t threaten
me Scott. I don’t appreciate your tone
and hostility.
SM (10:32 p.m.): It’s not a threat Emily.
It will happen. I don’t make idle threats.
You already know that. I will ruin you.
No physical violence of course. I will just
put on display everything you’ve done for
your son and the entire world to see. It’s
already in the works.
EP (10:32 p.m.): I have nothing to be
ashamed of and I pray some day you will
move on from your obsession with me
and your vendetta against me. Life is
good and you should learn to love it and
not lead a life of hate and anger. It is not
a good path to follow and Colin should
not be exposed to these actions.
SM (10:40 p.m.): Your words are hollow
Emily. They have no meaning just like
you. You are a shell. So full of lies you
don’t know whether you’re coming or
going.
But thank you for your wishes. I
would rather hold you accountable and

A-7

pay the consequences for your actions
(that continue to this day) than do
anything else in my life. And if you
haven’t already noticed, my children are
doing very well under my guidance and
parenting. We will see how well yours do.
You picked the wrong person to
screw over Emily. I thought you would
have known that after watching Martie.
But it didn’t matter because you are as
sick and pathologic as she is. You two are
one in the same.
I will do everything in my power
legally and publicly to hold you
accountable for your actions until the
day I die. I will never go away Emily.
And Colin will eventually know
everything about you. My other three,
Colin’s siblings, already do. You are far
from getting away with what you have
done and continue to do.
SM (10:43 p.m.): 9 years is only just the
beginning. I’m a patient man and I don’t
mind losing. But I will never go away.
And when I’m gone, my children will
take up the fight for me.
On October 5, 2017, Meyer wrote Peterson the
following message through OFW:
SM (12:14 p.m.): The court has requested
some type of new settlement document.
They will not tell me if they want a new

A-8

settlement effort or just a refiling of the
prior document. The games you and the
court play just to keep me from parenting
my son are truly ludicrous and childish.
If you and the court haven’t figured it out
yet, I will just keep coming back
regardless of the illegal obstacles you put
in my way. And in less than three years,
I’ll have Ashlye and Josh fighting for me.
I’ve filed appeals and even a writ to the
Supreme Court. I don’t care about losing
or any of your or the corrupt judges’
rhetoric. I only care about my children. I
will fight to the end for them.
Just as an FYI, I’m writing a book
and naming names. It’s all documented
and I’ve been waiting a long time for this.
And you can disregard what I say but you
know I always follow through. You and
everyone involved will be outed.
I want a passport for my son so I
can take him where I want and when I
want without you or anyone else
interfering. Show I’m an unfit parent
and then you and the court can interfere
all you want. Until then, stay out of my
personal life which included my
parenting.
Give me a passport and agree to
not interfere in my parenting and I’ll let
this next hearing go. Otherwise, it is
already rescheduled for May 4 2018 at
9:30 am with Ms. Stevens. If we wait

A-9

long enough (just a couple more years),
I’ll have plenty of legal representation.
I will also make sure the court
gets a copy of all my correspondences to
you including these on this app.
Peterson sought an ex parte HRO. A hearing
was held; Peterson and Meyer both testified.
Following the hearing, the district court determined
that Meyer’s messages to Peterson from October of
2017 constituted repeated incidents of harassment
and issued an HRO.
Meyer appeals.
DECISION

I.

Standard of Review

“[T]he issuance of an HRO is reviewed for abuse
of discretion.” Peterson v. Johnson, 755 N.W.2d 758,
761 (Minn. App. 2008). This court will reverse the
issuance of an HRO only if the issuance is not
supported by sufficient evidence. Kush v. Mathison,
683 N.W.2d 841, 844 (Minn. App. 2004), review denied
(Minn. Sept. 29, 2004). “A district court’s findings of
fact will not be set aside unless clearly erroneous, and
due regard is given to the district court’s opportunity
to judge the credibility of witnesses.” Id. at 843-44.
“Findings of fact are clearly erroneous only if the
reviewing court is left with the definite and firm
conviction that a mistake has been made.” Fletcher v.
St. Paul Pioneer Press, 589 N.W.2d 96, 101 (Minn.
1999) (quotation omitted). We review questions of law
de novo. Peterson, 755 N.W.2d at 761.

A-10

II.

The HRO is supported by sufficient
evidence of harassment.

Minnesota law allows the district court to issue
an HRO upon a finding that “there are reasonable
grounds to believe that the respondent has engaged in
harassment.” Minn. Stat. § 609.748, subd. 5(b)(3). The
term harassment includes “repeated incidents of
intrusive or unwanted acts, words, or gestures that
have a substantial adverse effect or are intended to
have a substantial adverse effect on the safety,
security, or privacy of another, regardless of the
relationship between the actor and the intended
target.2 Id., subd. 1(a)(1). In order to prove that
harassment
has
occurred,
Minnesota
law
requires both: (1) objectively unreasonable intent or
conduct on the part of the harasser; and (2) “an
objectively reasonable belief on the part of the person
subject to” harassment. Dunham v. Roer, 708 N.W.2d
552, 567 (Minn. App. 2006), review denied (Minn. Mar.
28, 2006). Objectively unreasonable conduct includes
conduct that “goes beyond an acceptable expression of
outrage and civilized conduct, and instead causes a
substantial adverse effect on another’s safety, security
or privacy.” Kush, 683 N.W.2d at 846. Statements that
are merely argumentative or inappropriate do not rise
to the level of harassment. Witchell v. Witchell, 606
N.W.2d 730, 732 (Minn. App. 2000).
Here, Meyer argues that his language, while
The definition of harassment also includes (1) “a single incident
of physical or sexual assault”; (2) “a single incident of stalking”;
(3) “a single incident of nonconsensual dissemination of private
sexual images”; (4) “targeted residential picketing”; and (5) “a
pattern of attending public events after being notified that the
actor’s presence at the event is harassing to another,” none of
which are relevant here. Minn. Stat. § 609.748, subd. 1(a) (2018).
2

A-11

inappropriate and argumentative, is insufficient to
support a finding of harassment because his
comments were not analyzed in the proper context. In
Witchell, an HRO was issued against husband for
messages he left his wife in their child-visitation
notebook, including: (1) “Joint legal and joint physical
is what I want, and what you swore you would agree
to for years and years if we got a divorce”; (2) “Please
stop telling me what I need to do. Where I choose to
go, and who I choose to see is my decision we are
separated”; (3) “Please do not use this book to threaten
me”; (4) “This is the intent and purpose of child
support which I pay on a monthly basis at the
maximum rate. I will have my lawyer call your lawyer
sometime to explain.” Id. This court determined that
Witchell’s comments, considered within their
“context,” did not constitute harassment. Id. Meyer
argues that the district court abused its discretion by
failing to consider Meyer’s comments within “the
context of the entire conversation and within the
context of the parties’ ongoing legal dispute.”
However, Meyer’s behavior is substantially different
than the parties in Witchell because Meyer made
multiple statements which were not related to
parenting time or child support. Moreover, the district
court need not analyze Peterson’s conduct in its HRO,
because the question before the district court “was not
why appellant conducted himself in the manner he
did, but whether appellant’s actions had, or were
intended to have, a substantial adverse effect on the
safety, security, or privacy of respondent.” Kush, 683
N.W.2d at 844.
Meyer also argues that Peterson failed to prove
that there were repeated incidents of intrusive or
unwanted words. Though the district court considered

A-12

two dates—October 4 and October 5—to support its
finding of harassment, Meyer argues that the
statements he made on October 5 were not
harassment. Meyer cites to Peterson and Beach to
support the proposition that numerous threats that
are made as part of a single conversation—in this
case, on October 4—constitute only a single incident
under the statute. See Peterson, 755 N.W.2d 766
(holding that the HRO was improperly issued upon
only one incident of harassing conduct); see also Beach
v. Jeschke, 649 N.W.2d 502, 503 (Minn. App. 2002)
(holding that a “two-sentence statement, uttered on
one occasion, does not meet the requirement of
‘repeated incidents’”).
We are not persuaded by Meyer’s argument
because there is sufficient evidence in the record to
support the ongoing harassment of Peterson. Peterson
testified Meyer messaged her outside the parameters
of parenting their child “all the time” and that she has
asked him to stop threatening her “numerous” times.3
The district court considered two dates—October 4
and October 5—in its order, to support its finding of
harassment. The messages on October 4 clearly
constitute harassment. For example, on October 4,
Meyer messaged Peterson: (1) “I’ve only just begun
with you”; (2) “You have only seen the tip of the
Evidence of a prior OFW conversation on March 9, 2016,
between Meyer and Peterson was admitted during the hearing
which ended with Peterson messaging Meyer: “Please stop
harassing me with this and I do not appreciate the way you talk
to me.” However, the district court did not include this instance
in its HRO. “Accordingly, this court may assume that the district
court rejected those grounds for issuance of the HRO.” Peterson,
755 N.W2d at 766 (citing Kroning v. Kroning, 356 N.W.2d 757,
760 (Minn. App. 1984) (district court “considered and rejected”
argument because court “did not make a specific finding” on the
issue)).
3

A-13

iceberg from me in your life”; (3) “I will ruin you”; and
(4) “I will never go away. . . when I’m gone, my
children will take up the fight for me.” The October 5
comments reiterated some of the threatening themes
from the October 4 conversation. For example, on
October 5, Meyer messaged Peterson:
If you and the court haven’t
figured it out yet, I will just keep coming
back regardless of the illegal obstacles
you put in my way. And in less than
three years, I’ll have Ashlye and Josh
fighting for me. . . .
Just as an FYI, I’m writing a book and
naming names. It’s all documented and
I’ve been waiting a long time for this.
And you can disregard what I say but you
know I always follow through. You and
everyone involved will be outed.
“A district court’s findings of fact will not be set
aside unless clearly erroneous, and due regard is
given to the district court’s opportunity to judge the
credibility of witnesses.” Kush, 683 N.W.2d. at 843-44.
The record supports the finding that Meyer
perpetrated “repeated incidents of intrusive or
unwanted acts, words, or gestures” that were
“intended to have a substantial adverse effect on the
safety, security or privacy” of Peterson. See Minn.
Stat. § 609.748, subd. 1(a)(1). Accordingly, we
determine that the district court did not abuse its
discretion in its issuance of the HRO.

A-14

III.

The HRO is not vague or overbroad.

Meyer also argues that the district court’s order
is overbroad and vague as applied to him. A law “is
unconstitutionally overbroad as applied if it prohibits
constitutionally protected activity in the particular
context of the facts and circumstances of the case.”
State v. Hall, 887 N.W.2d 847, 856 (Minn. App. 2016),
review denied (Minn. Feb. 22, 2017). Meyer argues
that
the
HRO
is
overbroad
because
it
unconstitutionally punishes his First Amendment
right4 to criticize Peterson and threaten her with
publication of a book. This argument is unavailing.
First, we see nothing in the HRO that prohibits
publication of a book. Second, Meyer’s argument that
the HRO is overbroad because it prohibits him from
criticizing Peterson’s parenting to Peterson is
unpersuasive. To illustrate his point, Meyer offers this
court a hypothetical: “But what if [Meyer] legitimately
suspected [ ] Peterson of child neglect and felt the need
to send her a message telling her that her behavior
must change or else he will report her to child
protective services?” We note that if Meyer, in goodfaith, believed that his child was being neglected or
abused, the HRO does not prohibit him from reporting
that to the proper authorities. See Peterson, 755
N.W.2d 765- 66 (providing that it is not harassment to
4

We note that this court has previously determined that the
harassment statute is narrowly tailored to regulate unprotected
conduct and does not implicate the First Amendment, likening
that conduct to “fighting words,” “true threats,” or an invasion of
privacy. Dunham, 708 N.W.2d at 565-66. “[T]he harassment
statute on its face is not a time or place restriction on speech in
a public forum
Instead, it is directed at repeated intrusive or
unwanted conduct that potentially could occur at any time or
place.” Id. at 565.

A-15

call law enforcement regarding concerns of child abuse
and endangerment if done in good faith).
Meyer argues that the HRO is vague because a
reasonable person would be confused as to the type of
conduct the order prohibits. An order is
unconstitutionally vague if persons of “common
intelligence must necessarily guess at its meaning and
differ as to its application.” Connally v. Gen. Constr.
Co., 269 U.S. 385, 391, 46 S. Ct. 126, 127 (1926). The
HRO prohibits Meyer from harassing Peterson, but
provides that Meyer “may have contact with
[Peterson] through Our Family Wizard to discuss
child-related issues only” and “[t]he parties may also
have direct contact while participating in any courtordered ADR process,” but “[n]o other forms of contact
are permitted.” We determine that an individual with
“common intelligence” could understand the clear
parameters of the HRO and would not have to guess
at its meaning.
Affirmed.

A-16

STATE OF MINNESOTA
DISTRICT COURT
COUNTY OF OLMSTED
CIVIL DIVISION
THIRD JUDICIAL DISTRICT
Emily Peterson,
Petitioner,
and

Court File No. 55-CV-17-6987
FINDINGS AND ORDER

Scott Howard Meyer,
Respondent.
This matter came duly on for a Harassment hearing
before the Honorable Kevin A. Lund, Judge of District
Court, on January 5, 2018.
James McGeeney, Esq., appeared on behalf of
Petitioner, Ms. Emily Peterson, who was present in
court. Opal Richardson-McLean, Esq., appeared on
behalf of Respondent, Dr. Scott Howard Meyer, who
was also present in court.
Based upon said hearing, the Court makes the
following:
FINDINGS
1. Petitioner, Ms. Peterson, filed a Petition for
Harassment Restraining Order on October 13,
2017 and an Ex Parte Harassment Restraining
Order was issued on October 17, 2017.
2. Respondent, Dr. Meyer, requested a hearing on
December 12, 2017 and a hearing was
scheduled for December 27, 2017. After a
continuance request from Attorney RichardsMcLean was granted, a hearing was scheduled
for January 5, 2018.

A-17

3. Based on the evidence adduced and upon all
files, records and proceedings held on January
5, 2018, the Court issued an Order Granting
Harassment Restraining Order After Hearing
for a period of two years.
4. Dr. Meyer has engaged in harassment of Ms.
Peterson by sending harassing electronic
messages and making threats to the Petitioner
via Our Family Wizard as follows:
a. October 4, 2017 at 10:25 p.m., Dr. Meyer
wrote:
I will never forgive or forget or let go of
what you did by stealing [C]olin from me
and his siblings then continually
interfering with our relationship with him.
9 years is just the beginning. I've only just
begun with you.
b. He continued in a message with the same
date at 10:28 p.m., writing:
... when Colin is older, [I]'II show him
everything in addition to the public display
of all your behavior. You know I'm not all
talk Emily. I will follow through. You have
only seen the tip of the iceberg from me in
your life.
c. Ms. Peterson responded at 10:29 p.m.,
"Please don't threaten me Scott. I don't
appreciate your tone and hostility."
d. At 10:32 p.m. Dr. Meyer responded,

A-18

writing:
It's not a threat Emily. It will
happen. I don't make idle threats.
You already know that. I will ruin
you. No physical violence of course.
I will just put on display everything
you've done for your son and the
entire world to see. It's already in
the works.
e. At 10:40 p.m., he wrote:
i. I would rather hold you accountable
and pay the consequences for your
actions (that continue to this day) than
do anything else in my life...
ii. I will do everything in my power legally
and publicly to hold you accountable for
your actions until the day I die. I will
never go away Emily. And Colin will
eventually know everything about you.
My other three, Colin[']s siblings,
already do. You are far from getting
away with what you have done and
continue to do.
f. At 10:43 p.m. he again wrote, "I will
never go away. And when I'm gone, my
children will take up the fight for me."
g. Finally, on October 5, 2017 at 12:14 p.m.,
Dr. Meyer wrote the following:
i. If you and the court haven't figured it

A-19

out yet, I will just keep coming back
regardless of the illegal obstacles you
put in my way. And in less than three
years, [I]'ll have Ashlye and josh
fighting for me. I've filed appeals and
even a writ to the Supreme Court. I
don't care about losing or any of your or
the corrupt judges' rhetoric. I only care
about my children. I will fight to the
end for them.
ii. Just as an FYI, I'm writing a book and
naming names. It's all documented and
I've been waiting a long time for this.
And you can disregard what I say but
you know [I] always follow through.
You and everyone involved will be
outed.
5. At the hearing, Dr. Meyer acknowledged that he
wrote these messages to Ms. Peterson, that he
intended to threaten her with the book that he is
writing, and that he "stands by [his] words" in
the messages.
6. Ms. Peterson testified that she does feel
unsettled after receiving these messages from
Dr. Meyer. She does not give their joint child the
security code to their home out of fear that he
will share it with Dr. Meyer. Additionally, she is
looking into a home security system, and she has
considered keeping firearms in the home.
7. The harassment has had and was intended to
have a substantial adverse effect on Ms.
Peterson's safety, security, or privacy.

A-20

8. At the conclusion of the hearing, the Court
requested that each party give a brief statement
about their son. Ms. Peterson gave a statement
describing the child, his activities, and how well
he does emotionally given his circumstances.
She explained that the child has been travelling
since he was thirteen months old, and he
travels frequently.
9. Dr. Meyer, when prompted to give a statement
about his son, responded that the Court "did not
deserve to know anything about [his] son." Dr.
Meyer referred to the Honorable Kevin
A. Lund as "Mr. Lund," showing great
disrespect for the court and judicial officer.
10. Dr. Meyer was then found in contempt of court
for his behavior and was told he would be held
in the Adult Detention Center for a period of
three days.
11. Immediately, Dr. Meyer took his cell phone out
and began using it. The Court asked him to put
it down, citing the signage in the hallway that
dictates cell phones are not to be used in the
courtroom.
12. Dr. Meyer was taken into custody. However,
after a short period of time, and inquiry by the
Court as to whether he was presently exercising
his parenting time, the Court vacated the jail
time previously ordered so as not to negatively
impact the child.
13. The Court made a finding on the record, and

A-21

again makes the finding in this Order, that Dr.
Meyer was in contempt of court for his clear
showing of disrespect to the court and behavior
that defied the dignity of the Court.
ORDER
IT IS ORDERED:
1. Respondent SHALL NOT harass Petitioner.
2. Respondent is prohibited from being within two
(2) 500 foot blocks of Petitioner's home,
located at 790 River Park Lane SE, Oronoco,
Minnesota.
3. Respondent is prohibited from being within two
(2) 500 foot blocks of Petitioner's job site.
4. Respondent may have contact with Petitioner
through Our Family Wizard to discuss childrelated issues only. The parties may also have
direct contact while participating in any courtordered ADR process related to Court File
Number 55-FA-14-2050. No other forms of contact
are permitted.
5. This order shall remain in effect until
January 8, 2020.
6. The Court Administrator shall send a copy of this
Order to the following law enforcement agency(s):
Olmsted County Sheriff's Department and
Rochester Police Department. Every police
department and sheriff's office in the United
States, include those affiliated with tribal

A-22

and territorial lands is responsible for
enforcing this Order under 18 U.S.C. § 2265
Full Faith and Credit of Protective Orders.
NOTICE
Any conduct by the Respondent in violation
of the specific provisions provided in the "It
Is Ordered" section above constitutes a
violation of this Harassment Restraining
Order. A police officer shall arrest the
Respondent without warrant and take the
Respondent to jail if the police officer
believes the Respondent has violated this
Order, and shall hold the Respondent in jail
for at least 36 hours, excluding the day of
arrest, Sundays, and legal holidays, unless
the Respondent is released by a judge or
judicial officer.
Violation of this Harassment Restraining
Order may be treated as a misdemeanor,
gross
misdemeanor,
or
felony.
A
misdemeanor violation may result in a
sentence of up to 90 days in jail and/or a fine
of $1000.00. Some repeat violations are gross
misdemeanors that may result in a sentence
of up to one year in jail and/or a $3,000.00
fine. Other violations are felonies that may
result in a sentence of imprisonment for up
to five years and/or a fine of $10,000.00. A
person who engages in a pattern of
harassing conduct is guilty of a felony and
may be sentenced to imprisonment for up to
ten years and/or a fine of $20,000.00.

A-23

Kevin A. Lund
Judge of District Court

Distribution
Certified copy or original -Return to
Court Administrator with Affidavit of
Service attached
Copy for Petitioner(s)
Copy for file until original returned
Copy for Respondent(s)
Copy for local police department
Copy for Sheriff
Other:

A-24

